         AUDIT OF THE OFFICE OF 

  COMMUNITY ORIENTED POLICING SERVICES 

TECHNOLOGY PROGRAM GRANT AWARDED TO THE 

       MADISON POLICE DEPARTMENT 

            MADISON, WISCONSIN

         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


        Audit Report GR-SO-13-011 

               August 2013 

                        AUDIT OF
           THE OFFICE OF COMMUNITY ORIENTED
                   POLICING SERVICES
        TECHNOLOGY PROGRAM GRANT AWARDED TO
            THE MADISON POLICE DEPARTMENT
                    MADISON, WISCONSIN

                        EXECUTIVE SUMMARY

       The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS)
Technology Program grant number 2010-CK-WX-0048 in the amount of
$700,000 awarded to the Madison, Wisconsin, Police Department
(Madison PD). The COPS Technology Program provides direct funding for
the continued development of technologies and automated systems to assist
in investigating, responding to, and preventing crime. Grants are intended
to enhance a variety of technical equipment and/or programs to encourage
the continuation and advancement of community policing efforts within a
jurisdiction.

       Specifically, the purpose of grant number 2010-CK-WX-0048 was to
assist the Madison PD to enhance its records management system.
According to the grant application, the records management system will
service 14 municipalities within Dane County, Wisconsin, and will advance
the Madison PD’s community policing strategy by disseminating more
intelligence into the field in a more expeditious manner, which will improve
both the patrol and investigative capabilities of law enforcement agencies
throughout the county. The Madison PD explained that the upgraded system
will provide users with an extensive integration of mapping, crime analysis
tools, and ad-hoc report writing capabilities.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to assess program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) property
management, (6) federal financial and progress reports, (7) grant
requirements, (8) program performance, and (9) monitoring contractors.
We determined that indirect costs, local matching costs, program income,
and sub-grantees were not applicable to this grant.
      Our audit revealed that the Madison PD generally complied with the
COPS Office’s grant guidelines with respect to internal control environment,
drawdowns, budget management and control, property management,
reporting, and program performance. However, we found:

     •	 The Madison PD used grant funds for a maintenance contract that
        was not approved by the COPS Office at the time it was purchased.
        Therefore, we are questioning $15,000 in unallowable costs.

     •	 The grantee did not have formal procedures to ensure contractors
        were properly monitored.

       Our report contains two recommendations to address the issues we
identified. Our findings are discussed in the Findings and Recommendations
section of the report. Our audit objective, scope, and methodology are
discussed in Appendix I.




                                    – ii –
                                TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1

   Background.......................................................................... 2

   Our Audit Approach............................................................... 2


FINDINGS AND RECOMMENDATIONS........................................ 4

   Internal Control Environment ................................................. 4

   Drawdowns .......................................................................... 5

   Transaction Testing ............................................................... 6

   Budget Management and Control ............................................ 7

   Property Management ........................................................... 8

   Reports ............................................................................... 8

   Compliance with Grant Requirements ...................................... 9

   Program Performance and Accomplishments ...........................10

   Monitoring Contractors .........................................................10

   Views of Responsible Officials ................................................11

   Recommendations ...............................................................11


APPENDIX I:          OBJECTIVE, SCOPE, AND METHODOLOGY........ 12


APPENDIX II:          SCHEDULE OF DOLLAR-RELATED FINDINGS ... 13


APPENDIX III: AUDITEE RESPONSE ...................................... 14


APPENDIX IV:           OFFICE OF COMMUNITY ORIENTED

                         POLICING SERVICES RESPONSE................ 16


APPENDIX V:           OFFICE OF THE INSPECTOR GENERAL

                        ANALYSIS AND SUMMARY OF ACTIONS

                        NECESSARY TO CLOSE THE REPORT .......... 19

                            INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS)
Technology Program grant number 2010-CK-WX-0048 in the amount of
$700,000 awarded to the Madison, Wisconsin, Police Department
(Madison PD). The COPS Technology Program provides direct funding for
the continued development of technologies and automated systems to assist
in investigating, responding to, and preventing crime. Grants are intended
to enhance a variety of technical equipment and/or programs to encourage
the continuation and advancement of community policing efforts within a
jurisdiction.

       Specifically, grant number 2010-CK-WX-0048 was awarded to the
Madison PD to enhance its regional records management system. This
system provides 14 municipalities within Dane County, Wisconsin (including
the city of Madison), with access to a standardized and central repository of
information. According to the grant application, the records management
system will service 14 municipalities within Dane County, Wisconsin, and will
advance the Madison PD’s community policing strategy by disseminating
more intelligence into the field in a more expeditious manner, which will
improve both the patrol and investigative capabilities of law enforcement
agencies throughout the county. The Madison PD explained that the
upgraded system will provide users with an extensive integration of
mapping, crime analysis tools, and ad-hoc report writing capabilities.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) property
management, (6) federal financial and progress reports, (7) grant
requirements, (8) program performance, and (9) monitoring contractors.
We determined that indirect costs, local matching costs, program income,
and sub-grantees were not applicable to this grant. As shown in the
following table, the Madison PD was awarded a total of $700,000 to
implement the grant program.
                TABLE 1 -MADISON POLICE DEPARTMENT 

                      GRANT 2010-CK-WX-004S' 

                                 AWARD           AWARD
        GRANT AWARD                                            AWARD AMOUNT
                              START DATE       END DATE
     201O-CK-WX-0048           12(16(09         12(15(13         $700,000
                                                   Total:        $700,000
   Source. The COPS Office


Background

       The COPS Office was established as a result of the Violent Crime
Control and Law Enforcement Act of 1994 to assist law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the country.
Community policing represents a shift from more traditional law enforcement
in that it focuses on prevention of crime and the fear of crime on a local
basis. Community policing puts law enforcement professionals on the
streets and assigns them a beat so they can build mutually beneficial
relationships with the people they serve.

      The city of Madison is the capital of Wisconsin, located in the south
central portion of the state. As reported in the 2010 U.S. Census, the
population of Madison was 233,209, making it the second largest city in
Wisconsin. As of February 2013, the Madison PD's authorized workforce was
449 officers and 130 civilian personnel.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the 2010 COPS Technology Program Grant
Owner's Manual, grant award documentation, the Code of Federal
Regulations, and relevant Office of Management and Budget (OMB)
Circulars.

      In conducting our audit, we performed sample testing in four areas:
(1) drawdowns, (2) transactions, (3) budget management and control, and
(4) property management. In addition, we reviewed the timeliness and
accuracy of the Federal Financial Reports (FFR) and progress reports,
evaluated performance to the grant objectives, and reviewed the internal


       1 The award end date was cha nged from December 15, 2012, to December 15,

2013, in a no-cost budget modification granted by the COPS Office.
                                        - 2­
controls of the financial management system. Our audit objective, scope,
and methodology are discussed in Appendix I.




                                   – 3 –

               FINDINGS AND RECOMMENDATIONS

      The Madison PD generally complied with the COPS Office’s grant
      guidelines with respect to internal control environment,
      drawdowns, budget management and control, property
      management, reporting, and program performance. However,
      we identified $15,000 in questioned costs for the procurement of
      unapproved maintenance costs. In addition, we believe that the
      Madison PD can improve its grant management activities by
      establishing written procedures for monitoring contractors.

Internal Control Environment

       We reviewed the Madison PD’s financial management policies and
procedures to assess its risk of non-compliance with laws, regulations,
guidelines, and terms and conditions of the grant. We also interviewed
individuals who were involved with the grant, including the grant manager
and project manager, and we evaluated grant management practices to
further assess risk.

Single Audit

       OMB Circular A-133 requires grantees to perform a Single Audit if
federal expenditures exceed $500,000 in a year. We determined that the
city of Madison, which encompasses the Madison PD, was required to have a
Single Audit performed during our review period, and we reviewed the
applicable reports.

         The 2010 and 2011 Single Audit Reports were prepared under the
provisions of OMB Circular A-133. In the category of Federal Award
Findings, the 2010 Single Audit indicated that the grantee did not verify
whether vendors and sub-grantees were suspended or debarred from
participating in federal assistance before approving contracts with them. In
response to this audit finding, the city of Madison stated that it had
incorporated an additional step in the review process to verify whether a
vendor or sub-grantee is suspended or debarred prior to entering into a
contract. During fieldwork, we verified that the city of Madison had, in fact,
implemented this control, and we also noted that this issue was no longer
identified as a finding in the 2011 Single Audit report.

Financial Management System

     According to the 2010 COPS Technology Program Grant Owner’s
Manual, the Madison PD is required to keep accurate financial records by

                                     – 4 –

maintaining accounting systems and financial records to accurately account
for funds awarded and disbursed. There was sufficient separation of duties,
and the financial management operating procedures were documented. We
found that the grantee maintained a separate, external spreadsheet to track
grant-related expenditures, which the grantee used for requesting
reimbursement and for completing the required financial reports. Although
the dollar amounts of grant-related expenditures shown in the external
spreadsheet were in line with the transactions in the official accounting
system, we identified differences in how the costs were categorized within
the two systems. When discussing these differences with the grantee, the
grantee acknowledged that the official accounting system has limitations.
The grantee explained that users are unable to easily access transaction
details from the system, and that it is difficult to track grant expenditures by
the proper budget codes. The grantee further stated that the accounting
system is being upgraded and is hoping that the upgrade will include a grant
module that will provide the necessary tools for managing grants.

Drawdowns

       Grant officials stated that drawdowns were based on actual
expenditures recorded in the accounting records. As shown in Table 2, we
reviewed the accounting records and compared the expenditures to the
actual drawdowns and found that the cumulative amount of transactions in
the accounting records were generally in agreement with the cumulative
amount of drawdowns. In the February 2012 drawdown, the Madison PD
failed to include $9,015 in grant-related costs that had been incurred.
However, the April 2012 drawdown of $9,015 accounted for these
expenditures.

     TABLE 2 – COMPARISON OF DRAWDOWNS AND ACCOUNTING

                           RECORDS

                                GRANT            DIFFERENCE
                             EXPENDITURES         BETWEEN
 DATE OF                           PER           DRAWDOWNS        CUMULATIVE       CUMULATIVE
DRAWDOWN       AMOUNT         ACCOUNTING             AND          DRAWDOWNS       EXPENDITURES
 PER THE      DRAWN PER       RECORDS FOR       EXPENDITURES           PER THE        PER
  COPS        THE COPS        DRAWDOWN          INACCOUNTING           COPS       ACCOUNTING
  OFFICE        OFFICE          PERIOD            RECORDS              OFFICE      RECORDS
02/03/2012       $338,075          $347,090             $9,015         $338,075       $347,090

04/25/2012           9,015                  0          (9,015)          347,090        347,090

08/01/2012         52,692             52,692                  0         399,782        399,782
Source: Madison PD accounting records & COPS Office drawdown records




                                            –5–
Transaction Testing

       We reviewed the Madison PD’s records and found that there were a
total of 10 grant-related transactions totaling $399,782 between
December 16, 2009, and September 30, 2012.2 We examined all
10 transactions and found that they were generally supported and properly
charged to the grant.

       However, we identified that in August 2012 the Madison PD was
reimbursed $15,000 in grant funds for costs associated with maintenance for
the records management system. These costs were not listed as allowable
expenditures in the most recent budget approved by the COPS Office at the
time the expense was incurred. The Madison PD originally included $100,000
for maintenance costs in the grant budget, which the COPS Office approved
in August 2010. In August 2011, however, the Madison PD submitted to the
COPS Office a budget modification request. Among other items in the
request, the Madison PD stated that the $100,000 for maintenance costs
would no longer be paid through the grant and would, instead, be paid by the
city of Madison. The COPS Office approved the Madison PD’s budget
modification request. According to the grantee, the COPS Office
subsequently approved, via telephone, the Madison PD to charge
maintenance costs to the grant, but the grantee was unable to provide
documentation of this approval.

       The grantee subsequently submitted another budget modification
request in November 2012. Within that request, the Madison PD stated that
it has paid for the annual maintenance costs throughout the life of the
records management system project. The Madison PD further stated that it
did not previously know that the new software associated with the project
would have a higher maintenance cost, which the Madison PD failed to factor
into its 2012 budget. As a result, the Madison PD requested that $15,000 be
allocated for a portion of the annual software maintenance costs. In
January 2013, the COPS Office approved the budget modification request.

      We are concerned that the Madison PD’s August 2011 budget
modification request indicated that it had sufficient funds to pay for
maintenance costs and that grant funds were not needed for this
expenditure. However, the Madison PD was subsequently reimbursed

       2
          The grantee’s records indicated that originally there were a total of
13 expenditures totaling $420,532. However, the grantee subsequently identified that
three of these transactions totaling $20,750 should not have been charged to the grant and
made a correcting entry to fix the error. As a result, we excluded these 3 transactions from
our universe of expenditures to test, resulting in a universe of 10 grant-related transactions
totaling $399,782.

                                            – 6 –

$15,000 in grant funds for the maintenance costs at a point in time when
the expense was not authorized by the COPS Office. Therefore, we are
questioning the $15,000 as unallowable costs. In remedying these costs, we
believe the COPS Office should reassess the allowability of this expenditure
in light of the Madison PD's first budget modification that indicated these
costs would be paid with local funds.

Budget Management and Control

      According to the 2010 COPS Technology Program Grant Owner's
Manual, the Financial Clearance Memorandum specifies the costs, which fall
within one of six budget categories, that an agency is allowed to fund with
its Technology Program grant. The manual also notes that an agency may
need to reprogram grant funds to account for a change in an agency's fiscal
or law enforcement situation. For example, an agency may need to
purchase a different type of equipment due to changing needs. The COPS
Office reviews grant modifications on a case-by-case basis.

      The Madison PD had two subsequent budget modifications in addition
to the original approved budget. Initially, the approved budget categories
for the project were "equipment," "consultants and contractors," and
"other." The budget modifications were submitted in August 2011 and
November 2012, respectively. In both instances, the Madison PD did not
request a change to the overall award amount, the authorized budget
categories, or the project's overall scope. Instead, the Madison PD
requested modifications to the amounts allocated to the three original
budget categories, as well as to the specific items covered within those
categories, as shown in Table 3. The COPS Office approved both budget
modification requests.

            TABLE 3 - BUDGET MANAGEMENT AND CONTROL
                                                        AUGUST 2011      NOVEMBER 2012
                                         ORIGINAL         BUDGET           BUDGET
                                          GRANT         MODIFICATION     MODIFICATION
          COST CATEGORY                   BUDGET          REQUEST          REQUEST

    Eauipment                               $65,000          $146,000           $88,380
    Consultants and Contractors              90,000            100,000           90,000
    Other Costs                             545 000            454 000          521 620
    TOTAL                                 $700 000          $700 000          $700 000
       Source.   cops   Office and Mad ison PO accounting records


      We compared the amounts charged in each of the budget categories to
the approved budget amount for each budget category and did not identify

                                              - 7­
any instances in which the Madison PD incurred grant-related expenditures
in excess of the approved budget amount for each category.

Property Management

      The 2010 COPS Technology Program Grant Owner’s Manual requires
grantees to implement controls to ensure property and equipment purchased
with federal funds are properly safeguarded against loss, damage, or theft of
the property. The majority of the grant funds were to be used for non-
equipment expenditures. However, the Madison PD did use a portion of the
grant funds to purchase server equipment, which was the only piece of
accountable property that was purchased at the time of our fieldwork and
met the agency’s $5,000 threshold for what constitutes accountable
property. We verified the existence of the server equipment and that the
equipment was in use. We also observed that the server equipment was
stored in a room with limited, secure accessibility.

Reports

      According to the 2010 COPS Technology Program Grant Owner’s
Manual, award recipients are required to submit both financial and
programmatic progress reports. These reports describe the status of the
funds and the project, compare actual accomplishments to objectives, and
report other pertinent information.

Federal Financial Reports

       The COPS Office requires grantees to submit Federal Financial Reports
(FFR) no later than 30 days after the end of each calendar quarter. We
reviewed the nine FFRs submitted through the quarter ended September 30,
2012, and found that each report was submitted in a timely manner. As
shown in Table 4, we also reviewed the accounting records and compared
cumulative expenditures to expenditures reported in the FFRs and found a
few inconsistencies between the cumulative amounts. The differences
identified were a result of incorrectly entering data from the official
accounting system to the separate, external spreadsheet used to track
grant-related expenditures, as well as improperly charging non-grant related
expenditures to the grant and subsequently reversing that error. Because
the grantee corrected these errors prior to our audit, we do not take
exception to the differences identified. However, we believe that using a
separate, external spreadsheet for completing the required reports instead
of the official accounting system increases the risk of data entry errors.
Grantee officials explained, as noted previously, that they utilize this


                                   – 8 –

unofficial record because the official accounting system does not provide
optimal functionality for tracking grant-related transactions.

              TABLE 4 - FEDERAL FINANCIAL REPORT ACCURACY
                                                                                   DIFFERENCE
                                    EXPENDITURES              EXPENDITURES PER   BETWEEN FFRs   8r.
       REPORT PERIOD                 PER CURRENT                ACCOUNTING         ACCOUNTING
       FROM -To                           FFR
                  1-                             $0                         $0                    $0
                                                  0                          0                     0
                  .­                                 0                       0                        0
                  .­                                 0                       0                        0
     n"n                                        0                            0                        0
     , n' n
              "                                                                                   15
                                          347,075                      347,090
              " " '"                                                                            (15 )
       "n     "        n"""                      15                          0
     wn       "                            ",692                        73,442            70 7<0
                             "
     n"n,~,                                    0
                                                                      ( 2~~             ~750 )
                         1   ,an<     ;   , Police       _,


Program Progress Reports

       According to the COPS Office, progress reports are due annually to the
COPS Office by January 30. The reports we reviewed were completed in a
survey format rating a series of program performance statements on a scale
of 1 to 10. We reviewed the two required progress reports and found that
both reports were submitted in a timely manner and, in general, accurately
reflected grant-related activity.

Compliance with Grant Requirements

        We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the 2010 COPS Technology Program Grant
Owner's Manual, the award documents, the Code of Federal Regulations
(C. F.R.), and relevant OMB Circulars. Excluding the reporting requirements,
no specific performance measurements were detailed in the award's special
conditions. We found that the Madison PD complied with the grant reporting
requirements, which is discussed in the Reports section of this report. In
addition, because this grant was to fund an interjurisdictional criminal
intelligence system, the Madison PD was required to comply with the
operating principles of 28 C.F.R. Part 23. This regulation requires that such
criminal justice systems conform with the privacy and constitutional rights of
individuals. The Madison PD certified that it would comply with this
regulation.
                                                         - 9­
Program Performance and Accomplishments

       According to the grant application, the purpose of the grant was to
further enhance the Madison PD’s records management system so that users
have access to real-time data and analysis and to improve operations and
decision making. The grant application included an implementation plan for
upgrading to a comprehensive law enforcement records system; setting
forth the activities to be accomplished each quarter. The project manager at
the Madison PD uses a vendor-created project timeline along with the
implementation plan in the grant application and the statement of work to
keep track of the project’s progress, including the timely completion of the
upgrade. During fieldwork, we noted that the project manager updated the
timeline to reflect completed activities and revisions to expected completion
dates. We also attended one of the project status meetings that
summarized the project’s progress to date. Based upon the work completed
thus far, we believe that the Madison PD is accomplishing the grant’s
objectives.

Monitoring Contractors

      The Madison PD uses an extensive process when entering into a
contract and selecting the vendor for the contracted services. The
contracting process initially starts with a request for qualification that
narrows the list of applicants to those qualified based on experience,
references, and financial stability. The qualified applicants then submit their
proposals, which are reviewed and scored by a selected committee. The
committee makes its recommendation to the City Council for final approval.

      On this grant, the Madison PD contracted with one vendor to provide
the consulting and maintenance services needed for enhancing the records
management system. The Madison PD had previously contracted with this
vendor throughout the life of the records management system project.
Despite this, the Madison PD undertook the same selection process in
association with this COPS Technology Program grant and determined that
the vendor previously used was best qualified for continuing its work on the
project.

      To assist with monitoring the contractor’s performance, the project
manager at the Madison PD uses a vendor-created project timeline showing
the various phases of the project, including expected completion dates. The
project manager also uses the statement of work to identify what services
the contractor is supposed to provide and when those actions are to be
completed. Further, the project manager has weekly conference calls and
project meetings with the vendor and key personnel within the Madison PD

                                    – 10 –

to ensure each phase is completed as expected and to address any time
delays or concerns. Using all of this information, the project manager
ensures that the contracted services have been provided before authorizing
invoices for payment.

      Although we believe that the Madison PD has provided adequate
oversight of the vendor, the Madison PD does not have any formal
procedures to ensure contractors are properly monitored. We believe that
formally documenting an entity’s procedures is a best practice that helps
ensure all involved parties understand their roles and responsibilities and
what actions need to be taken to adequately monitor contractors. Because
the grant is on-going and there is the potential for turnover of staff involved
on the grant project, we recommend that the Madison PD develop and
implement a formal, written process to monitor contractors.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.

Recommendations

      We recommend that the COPS Office:

      1. Remedy the $15,000 in unallowable expenditures related to the
         reimbursement for maintenance costs not approved by the COPS
         Office at the time the cost was incurred.

      2. Ensure the Madison PD develops and implements a formal process
         to monitor contractors.




                                    – 11 –

                                                               APPENDIX I



            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) property
management, (6) federal financial and progress reports, (7) grant
requirements, (8) program performance and accomplishments, and
(9) monitoring contractors. We determined that indirect costs, local
matching costs, program income, and sub-grantees were not applicable to
this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. This was an audit of the Madison PD COPS Technology Program
grant number 2010-CK-WX-0048. Our audit concentrated on, but was
not limited to, the inception of the grant on December 16, 2009, through
September 30, 2012, and included such tests as we considered necessary
to accomplish our objective. The Madison PD had a total of $399,782 in
drawdowns as of October 17, 2012.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the 2010 COPS Technology Program Grant
Owner’s Manual, grant award documentation, the Code of Federal
Regulations, and relevant OMB Circulars.

      In conducting our audit, we performed testing in four areas:
(1) drawdowns, (2) transactions, (3) budget management and control, and
(4) property management. Because the Madison PD had a limited number of
transactions and accountable property, we reviewed all grant-related
transactions and accountable property. In addition, we reviewed the
timeliness and accuracy of the FFRs and progress reports, and we evaluated
Madison PD’s performance as it related to grant objectives. However, we did
not test the reliability of the financial management system as a whole.



                                   – 12 –

                                                                         APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS

Description                                                   Amount        Page

Questioned Costs 3

      Unallowable Maintenance Costs:                          $15,000         6
      Total Unallowable:                                      $15,000

Net Questioned Costs ........................................ $15,000



Total Net Dollar-Related Findings ...................... $15,000





      3
          Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                         – 13 –

                                                                                              APPENDIX III



                             AUDITEE RESPONSE





                     Madison Police Department
                     Noble Wray, Chief of Police                                           City-County Building
                                                                                           211 S. Carroll Street
                                                                                Madison, Wisconsin 53703-3303
                                                                                              PH 608 266 4022
                                                                                     TTY/Textnet 8662756529
                                                                                     Qolice@cityofmadison.com
                                                                                  www.cityofmadison.com/police




June 26, 20 13

Carol S. Taraszka
Regional Audit Manager
Chicago Regional Aud it Office
Office of the Inspector General
U.S. Department of Ju stice
500 West Madison Street, Suite 1121
Chicago, Illinois 6066 1

Dear Ms. Taraszka:

        Thank you for your draft audit report of the Office of Community Oriented Policing Services
Technology Program Grant awarded to th e Department. We welcomed your Office's review of the
Department's performance in managing a nd reporting the grant, which has been essential to ou r
regiona l records management system (RMS) implementat ion. T he audit revealed genera l compli ance,
and identi fi ed two issues that we respond to below.

        T he d raft audit report seeks a remedy for $ 15,000 in software maintenance expenses. The
COPS Office approved these expenses in the origina l budget a nd agai n in a modification. Therefore,
the Department believes that this issue has been sat isfactorily addressed. T he RMS project used both
COPS grant and City capital budget funding sources. In 2012, when the 2013 Department capita l
budget was developed, the Department believed the project impleme ntati on date would be in January
20 13 and thus included software maintenance in the 2013 capital budget, and reallocated ex isting
COPS funds through an approved budget modi fi cati on (that anticipated a 20 13 "go li ve" date). The
Department later learned the RMS project wou ld "go li ve" in December 20 12. Therefore, wh il e the
Department had secured 2013 funding through the capita l budget, we did not have maintenance costs
covered for December 20 12. Based on the project scope, the grant purpose and budget, the
Department be lieved that the COPS grant cou ld fund this one-month ma intenance gap, and the COPS
Office agreed.

         The d raft audit report states that o ur project manager provided adequate oversight of the
vendo r, but that the Department shou ld have written documentat ion for such monitoring procedures.
Si nce the Department was following all City fi nancial guide lines for contracts, the Department
believed its processes were adequate. However, si nce a written policy wi ll a id future contract
monitoring, the Department has developed a contract monitoring procedure, which has been
approved by the COPS Office.




                                                   – 14 –

June 26, 2013
Page 2




       Since both the Department and the COPS Offi ce have addressed the two draft audit issues,
the Department respectfully requests that the final audit report be issued with no recommendations.


                                              Sincere ly,




                                             t t Wy
                                              Chief of Police




Cc:     Karl W. Bickel , Senior Policy Anal yst, USDOJ COPS Office

Enclosure




                                             – 15 –

                                                                                                    APPENDIX IV


OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
                  RESPONSE



                    u.s. DEPARTME NT O F J USTI C E
                    O FFICE OF CO MMUNIT Y O RI ENTED P O LI CI NG SERVI CES
                    G ram Operations Directoratel Aud it Liaison Division
                                                                                      COPS
                    145 N Street, N.E., Washington, D C 20530



                                              ME MORANDUM


    Via Email and U s. Mail
    To:           Carol S. Taraszka
                  Regional Audit Manager
                  Office of the Inspector General
                  Chicago Region, ' ~ud i t Offi ce

    From :          Karl W. Bickel   nQ~
                    Senior Policy Anal yst

    Date:           June 27, 201 3

    Subject:        Response to Draft Audit Report and request for closure of Audit
                    Recommendations I and 2 of the Draft Audit Report dated June 13, 201 3 for the
                    Madison Police Department, Madi son, WI , OR! # WlO1301.

            This memorandum serves as CO PS' request for closure of Recommendations 1 and 2 as
    well closure of the Draft Audit Report dated June 13, 20 13 for the Madison Police Department,
    regardin g COPS Technology Grant # 20 1 0~C K-WX~004 8 ; based on the bel ow referenced acti ons
    taken by COPS and the grantee.


    Recommendation 1- The Madison PO used grant fund s for a maintenancc contra ct that
    was not approved by the COPS Office at the time it was purchased. Therefore. we are
    questioning $15,000 in unallowa hle costs.

    Status: Draft

    Discussion: COPS agrees that grantees should obtain approval for grant related purchases. Th e
    Madison Police Department included $ 100,000 in their original budget, approved by CO PS in
    August 2010, for maintenance costs. In a subsequent budget modification approved by COPS,
    August 2011 , the grantee removed fundin g to cover maintenance costs. The Madi son PD
    indi cated they had made another modifi cation request via telephone to restore funds for the
    maintenance contract and it had been verba ll y approved by COPS.

    A fin al written modificat ion request dated 11 126/ 12 (copy attached) was submi tted by the
    Madi son PO in which the funding for mai ntenance contracting was restored. Thi s fi nal
    mod ification req uest was approved by CO PS on 1122113 (copy attached).




                                                      – 16 –

Carol S. Taraszka, Regional Audit Manager, OIG
June 27, 2013
Page 2

Action Taken: The Madison Police Department is said to have received verbal approval from
COPS for the necessary budget modification to fund the maintenance agreement in question.
They followed up with a written request for the necessary modification which was retroactively
approved by COPS. A check was made with Andrew Dorr, assistant director for COPS Grants
Administration Division to ensure there was no prohibition against a retroactive approval for a
budget modification. There was no such prohibition. (Email attached)

Request: Based on the discussion and action taken, COPS requests closure of
Recommendation I.


Recommendation 2- The grantee did not have formal procedures to ensure contractors
were properly monitored.

Status: Draft

Discussion: COPS agrees that grantees should ensure that contractors are properly monitored.

Action Taken: The Madison Police Department has developed and submitted their policy and
procedure on the monitoring of contractors (copy attached).

Request: Based on the discussion and action taken, COPS req uests closure of Recommendation
2.


       Based on the above discussion and action taken, COPS considers the Draft Audit Report
closed and requests written acceptance of this determination from yOUT office. Once written
acceptance of thi s detennination is received from your office, COPS will notify the grantee.

       Thank you very much. If you have any questions regarding thi s memorandum, please do
not hesitate to contact me at (202) 514-5914 or via email at Karl.Bickel@usdoj.gov.


Attaclunents:
       Madison PD modification request dated 11126/12
       COPS modification approval dated 1122113
       Madison PO policy/procedure on contractor monitoring
       Email re retroactive modification 6117/2013

 cc:    Audit Liaison Office (ALO@usdoi.gov)

        Audit File

        Grant files:   2010-CK-WX -0048




                                      – 17 –

Carol S. Taraszka, Regional Aud it Manager, OIG
June 27, 20 13
Page 3

ORI # WI0 1301




                                    – 18 –

                                                                            APPENDIX V



                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS

                  NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the Madison PD and
the Office of Community Oriented Policing Services (COPS) for review and
comment. The Madison PD’s response is incorporated in Appendix III of this
final report; the COPS Office’s response is incorporated as Appendix IV. 4
The following provides the OIG analysis of the responses and summary of
actions necessary to close the report.

Recommendation Number:

   1. Resolved. We recommended that the COPS Office remedy the
      $15,000 in unallowable expenditures related to the reimbursement for
      maintenance costs not approved by the COPS Office at the time the
      cost was incurred. As discussed in our report, we are concerned with
      the reimbursement of $15,000 for maintenance costs because the
      Madison PD’s August 2011 budget modification request indicated that
      it had sufficient local funds to pay for maintenance costs and that
      grant funds were not needed for this expenditure. However, in
      August 2012 the Madison PD was reimbursed $15,000 in grant funds
      for the maintenance costs, which was at a point in time when the
      expense was not authorized by the COPS Office. Further, we
      suggested that when remedying these questioned costs, the COPS
      Office should keep in mind the Madison PD’s assertion from its August
      2011 budget modification request that maintenance costs could and
      would be paid with local funds.

       In its response, the Madison PD stated that when it was developing its
       2013 capital budget, officials expected the enhanced records
       management system to “go live” in 2013. As a result of this
       expectation, the Madison PD submitted an August 2011 budget
       modification request that indicated it no longer needed grant funds for
       maintenance costs. However, the Madison PD stated that the “go live”
       date was subsequently moved up to December 2012, and that it no
       longer had maintenance costs covered for the system at the time it
       would “go live.” The Madison PD said that the COPS Office agreed that
       the Madison PD could use grant funds to cover the December 2012
       maintenance costs.


       4
          The COPS Office’s attachments to its response are not included due to their
technical nature.

                                          – 19 –

In its response, the COPS Office concurred that grantees should obtain
approval for grant-related purchases and recapped the modifications
made to the grantee’s original grant budget. The COPS Office stated
that the Madison PD indicated that one of its modification requests to
restore funds for maintenance costs was done via telephone and that
the COPS Office verbally approved that request. However, the COPS
Office did not indicate if it agreed or disagreed with the grantee’s
assertions or provide any documentation to support these events,
including dates of the conversations. The COPS Office noted that the
Madison PD subsequently submitted a written budget modification
request to the COPS Office in November 2012 that included federal
funding for maintenance costs.

We do not believe the COPS Office’s response to our draft report
completely addresses the issue as explained in the report. As noted in
our report, we requested that the COPS Office reassess the allowability
of the maintenance costs in light of the Madison PD’s first budget
modification that indicated these costs would paid with local funds.
Based upon the COPS Office’s response, the COPS Office did not
indicate whether it considered the Madison PD’s previous assertion
that maintenance costs would be paid with local funds.

In addition, the timing of the events continues to raise concern.
Specifically, the $15,000 in maintenance costs were recorded in the
Madison PD’s grant ledger in May 2012, and the Madison PD was
reimbursed for this expenditure in August 2012. According to the
Madison PD’s response to the draft report, it requested that the grant
be allowed to cover the maintenance costs for December 2012 – the
date in which the project would “go live.” The COPS Office approved
the grantee’s written budget modification request in January 2013
after the commencement of this audit. Therefore, it is not clear why:
(a) this expenditure was recorded in the grant ledger and paid in
May 2012 prior to when the services were to be provided, and
(b) included in a reimbursement request prior to the formal budget
modification request. The COPS Office stated that there was not any
prohibition against retroactively approving a budget modification
request. These circumstances are unusual, and the COPS Office’s
response did not address these timing issues.

This recommendation can be closed after the COPS Office
appropriately remedies the $15,000 in unallowable expenditures
related to the reimbursement for maintenance costs not approved by
the COPS Office at the time the cost was incurred. In remedying the
costs, the COPS Office should consider all factors surrounding the

                             – 20 –

  maintenance costs charged to the grant and reassess the allowability
  of these costs.

2. Closed. We recommended that the COPS Office ensure the
   Madison PD develops and implements a formal process to monitor
   contractors. The COPS Office concurred with the recommendation. In
   its response, the COPS Office stated that the Madison PD developed a
   policy for monitoring contractors. In the Madison PD’s response, the
   Madison PD said that it believed its contractor oversight was adequate
   because it was following the city of Madison’s financial guidelines for
   contracts. The Madison PD further stated, however, that it developed
   a contract monitoring procedure because having a written policy would
   aid future contract monitoring. The COPS Office requested closure of
   our recommendation based upon the Madison PD’s provision of this
   policy.

  We reviewed the contractor monitoring procedures developed by the
  Madison PD and believe that the Madison PD’s actions adequately
  address the recommendation. Specifically, the procedures articulate
  the Madison PD’s role in monitoring contractor performance
  throughout the life of the contract – from communicating clear
  expectations with the vendor to ensuring satisfactory performance
  prior to payment and properly closing out the contract. Therefore, this
  recommendation is closed.




                                – 21 –

